No. 19-__

 

IN THE
Supreme Court of the United States

DONNIE CLEVELAND LANCE,

Petitioner,
Vv.

STATE OF GEORGIA,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Georgia

PETITION FOR WRIT OF CERTIORARI

CAPITAL CASE
IMMINENT EXECUTION SCHEDULED
JANUARY 29, 2020 at 7:00 P.M.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,100 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 23, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

     
